     NATIONAL CREDIT UNION ADMINISTRATION
         OFFICE OF INSPECTOR GENERAL



                              SAP
                      Security and Control
                            Review
                     Report #OIG-01-01         March 15, 2001




                                    Frank Thomas
                                  Inspector General



            Released by:                                  Auditor in Charge:
        William A. DeSarno                                 Tammy F. Rapp
Assistant Inspector General for Audits                    Senior IT Auditor
                                 EXECUTIVE SUMMARY
We performed a review of the National Credit Union Administration’s (NCUA) financial
system, SAP R/3 (SAP). SAP is used by NCUA to primarily perform online payment and
accounting of agency financial transactions. The purpose of our review was to assess controls
and recommend corrections for any deficiencies. We contracted with KPMG LLP to provide
technical assistance. Our review was performed from June through September 2000, and our
observations were presented during an exit briefing at the conc lusion of fieldwork. We applaud
NCUA for their sincere efforts and the many positive steps they have taken to address the
weaknesses identified during this review.

Our specific objectives were to determine whether the controls were adequate to reduce the risks
to an acceptable level for SAP’s Basis and the Financial Accounting, Controlling, and
Purchasing modules. In addition, we identified the current functionality of the Human Resources
module and performed an overall high- level risk assessment.

Our review identified several internal control weaknesses in the SAP security configuration.
Because SAP is utilized to process financial accounting information including Purchasing,
Accounts Payable, Accounts Receivable, General Ledger and Human Resources, security
breaches in this area could lead to unauthorized, undetected access to confidential financial and
employee data. The most significant findings were:

•   Duties within the purchasing process have not been adequately segregated. As a result,
    personne l could possibly gain control of the entire purchasing cycle, resulting in errors,
    irregularities or fraud.

•   A large number of users have been granted inappropriate authorities in the Financial
    Accounting and Controlling modules.

We believe the National Credit Union Administration (NCUA) should take immediate action to
conduct a thorough review of user access in order to ensure that user access is appropriately
restricted and that incompatible duties are segregated. If, due to organizational structure and
business need, duties cannot be segregated, management should implement compensating
controls such as periodic review of management reports.

These issues and the associated recommendations are discussed in detail in the attached report.
Issues and recommendations included in this report have been assigned a risk rating of High,
Medium, or Low. These risk ratings are based upon established professional control guidelines
and KPMG’s in-depth experience in evaluating controls in SAP and other business software
applications.

NCUA’s consolidated response to the 42 recommendations has been extremely positive. NCUA
has either implemented or agreed to implement all but one of the report’s original 43
recommendations. The OIG agreed with NCUA’s comment on this one low risk issue and has
retracted this recommendation from the final report. NCUA partially agreed with our



                                                  1
recommendation concerning segregation of duties because NCUA is a small agency with only a
few individuals capable of performing certain dut ies within any given office. We understand
NCUA’s concern and believe that compensating controls can be established to balance the risk.

Please note the content of this report is restricted to official use only in order to protect the
sensitive nature of the specific control weaknesses identified.




                                                   2
